                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: I05120074
                                                                                   11          Page 1 of 1
                                                                                                                  11
                  The Office of Investigations of the National Science Foundation (NSF) Office of Inspector
          General received a complaint1that an NSF contract02 had falsified safety reports, encouraged its
          employees to claim accidents occurred off duty, hired ineligible foreign nationals (non-citizens) as
          contract employees in a foreign count$, delayed construction projects to earn higher award fees,
          constructed substandard facilities, manipulated NSF managers to avoid accountability, and through
          faulty logistics procedures caused unacceptable construction delays that idled construction crews
          who could not be used elsewhere. The complainant also alleged that NSF and the other Federal
          agency employed by NSF to perform construction management and oversight4did not adequately
          supervise the contractor's construction and other activities and could not ensure adequate contract
          performance, and that NSF's personnel at the contract performance site could not effectivelyinteract
          with the contractor due to a conflict of interest.

                  OIG examined documentary evidence provided by the complainant and interviewed various
          NSF and outside witnesses, and concluded that the allegations were either unsupported or
          affirmativelycontradicted by evidence, or were too generally stated to permit effective investigation
          in the absence of indications of similar issues from other sources.

                     Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
